OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

-1/13/2021-----------

FILE COPY

COAJiJo.J.OJ.8-OM33jlCR
PD-0983-20
MINZE, GUY DON
Tr. Cf»%rGiCy=201i700234
On this day, the Appellant's P<R? **Se petitiofi for discretionary review has been
refused.
Deana Williamson, Clerk
GUY DON MINZE
BETO I UNIT - TDC # 2228023
1391 FM 3328
TENNESSEE COLONY, TX 75880

.'TENTH COURT OF-APPEALS
No, 10-XS-OQ333-GR
■" GOT-DONMNZE,.';
Appellant

v.
. THE STATE. OF TEXAS,

Appellee

Fromthe413th District Court
. Johnson Comity, Texas
. Trial Court No. DC-F201700234
'MEMORANDUM OPINION-.
Guy Doii Mmze.was charged with two counts of Criminal Solicitation of a Minor
(Counts One and Two), one count of. Bail Jumping (Count Three)! .arid one'count of..
Possession of a Controlled Substance (Count Four).- After a jury Mat Mbnge was
. convicted of each offense and sentenced, to life in. prison in Counts Orie.and Two, 25
years in prison in Count Three; and 10 years in prison in Count Four. -Because the trial.
court had subject matter jurisdiction and did not eir in denying Minze's -motion to

quash/ and because Minze's sufficiency of the evidence i
issues were not adequately
briefed, the trial court's judgments are affirmed.
Background
In a sting operation, Mihze solicited, by telephone, two undercover police
officers for oral sex. When he arrived for thi arranged meeting at a local-hotel, he was
arrested. During the arrest, Minze's cap fell off.and methamphetamine fell out of the
cap. MInze made bail, and although he. appeared in. court once, he failed to appear at a
subsequent court hearing and was located two months later on the other side of the

State.'
Subject Matter Jurisdiction
In his first issue, Minze contends the trial court did not.have subject matter
jurisdiction of Counts One and Two of the indictment, rendering his conviction on those
two -counts void. To support this contention, Minze argues that what was charged in
the indictment under Counts One and Two was not an offense appearing in the Texas
Penal Code, and thus, he cannot be legally convicted. Although not dear, it appears
Minze contends, as the title of the two counts indicate, he was charged with 'Indecency
With a Child by Sexual Contact-Crimirial Sofidtation of a Minor" and that specificallytitled offense does not appear in the Texas Penal Code.
The question of the subject matter jurisdiction of the convicting court may be
raised at any time. Gallagher v. State, 690 S.W.2d 587, 588 (Tex. Crim. App. 1985).
Minze v. State

Page 2

Moreover, a defendant may challenge fox die first time on appeal an instrument that .
fails to charge the commission of an offense or does not charge a particular person with
• the crime See-Tedv. State/ 230 S.W.3d172,178:180 (Tex. Crim. App.-2007); see dsa Kuol
. v. State, 482 S.W.3d 623,627. (Tex.App—Houston [14th Hist.] 2015,.pet. refd).

.

For a trial court to have jurisdiction, there must be a' charging- instrument See
. Martin v. SidterM6 S.W.3d229, 230-31 (Tec; App.-^Hbiiston|14thDist] 2011,.-no pet),. -"
A charging instrument must allege that (1) a person (2) committed an offense. See Ted, ■
230 S.W.3d - at 179; see also Tex. CONST. -art.' V,'§. 12(b) (defining "indictment" -and .
,,iriformation,, as written instnimeits presented to the court "charging a person with the

.

. commission, of an offense"). Hie proper test to determine if a charging instrument
. . alleges "an- offense" is whether the allegations in it are dear enough that one can identify
, die offense alleged Ted, 230 S.W.3d at 180 (Tex. Crim. App. 2007). In other words, .
• - "Can .die trial court.(and appellate' courts:who give deference- to die- trial court's-,
assessment) and the defendant identify what penal code, provision is alleged and is that
penal code provision onethat vests .jurisdiction in the.tdal couit?

Idlfso, then .the

trirjiMrnprit is gnffiHpnt hi confer subject matter jurisdidibn. ' Id We look to the charing
instrument as’a whole, notjust to its'specific formal requisites. Kirkpatrick v. State, 279
• S-W.3d 324,328 (Tex: Crim. App. 2009);
A person commits die offense of criminal solicitation of a niiriorif -the person,
with intent to commit an enumerated offense, requests, commands, or attempts to
Maize v. State -

1’age 3

.

induce a minor to engage in specific conduct that under the circumstances surrounding
his conduct as "the actor believes them to be, would constitute an enumerated offense, •
See TEX. PENAL Code § 15.031(a), (b). The criine-Minze was accused ofsolicitmg was
' indecency; with a child by contact.' Tex, PENAL CODE § 21.11(a)(1).
• In: this case, die body of die indictment alleged, in Count One, that on or about'
.. September 2,2015, Minze:'

.

•

.. ..

did then and there: - With die inferrt that die offense of indecency with a. .
child by sexual contact be committed, request, , command, or attempt to
- • induce a minor or an individual whom-the Defendant.bdievud: tobe
• younger' than 17 years, of age/nainely, Cora Gray, to engage in specific
' • . conduct, to wit -the touching'of. the anus/breast,' or'any part of the .
genitals of a cMLd .younger than 17. years of age with the intent to arouse
' or gratify the sexual desire of .any person, that under the circumstances .
surrounding the conduct of the said Defendant as die said.'Defendantbelieved, them to be Would constitute the offense of mdecency with a child
by sexual contact
The wording of the allegation in Count Two was exactly die same as in Count
Onewiih the excepfionofthe complainant being Kimberly Bustos...

. ■

■_■

When reviewing the indictment as a whole and comparing-it to the Penal Code
provision, it is dear to this Court that Minze was charged with-the offense-"of criminal'
. solidt'afion' of a minor, and the crime he was accused of soliciting, was indecency with a
child by contact- See Tex. PENAL CODE .§§ 15.031(b); 21.11(a)(1). Thus, in deference to'.
.

the trial court, we determine the allegations in Counts One and Two are dear enough
that both the trial court .and Minze could identify the offenses alleged and. that.penal.
code provision, section 15.031(a), (b), is one that vests ‘ jurisdiction in the trial court
Minze v. State

Page 4

-

Consequently, the trial court, acquired subject matter jurisdiction of Counts One

and.

Two. .
. Minze's first issue is overruled.
Motion to Quash
In his fourth issue, Mihze complains that die trial court erred in denying Mfnze's
.

•

pre-trial Motion toQuash. In that motion, Minze complained that Counts One and Two
of the indictment.. 1) diarged two different offenses which - deprived -him of the ■
certainty of what offense’ to defend-against;- 2) failed to charge an offense m ordinary ’
and. concise language; 3) contained a defect in form because the counts were vague as to
specific intent and . thus failed to. dearly state an. offense;. and. 4) failed- to confer
.jurisdiction by failing to charge the commission of an' offense due tb the omission of an
v alleged conduct element. ..On appeal, however, Minze complains that two’distinct.
• • offenses were drarged in the one paragmpth in each of Counts One and Two,-which is ’
prohibited by law, and that Counts One and. Two failed to provide notice of the alleged,
element of conduct These are not the same complaints raised by Mihze in his motion to
■ quash.1

. ' .

1 Although the notice argument on appeal xnay appear, at first blush, to’be the saute as Mime's fourth .
argument in his motion to quashruofice and the failure to allege an’element of. fire offense axe not the
.same,. See Smith. V. State, 309 S.W.3d 10,16,18 (Tex. Cmn. App. 2010) (court of appeals rmschararterized
• defendant's complaint as a "notice problem" when defendant complained the charging’instrument foiled
to describe an’ element of the offense).
Minze v. State

. Page 5

Accordingly/ Maize's arguments on appeal do not comport with the arguments
made at trial in his Motion to Quash, and this issue is not preserved for our review. See
Lovill v. State, 319S.W.3d 687, 691-92 (Tex. Crim. App; 2009); Pena v. State,-285 S.W.3d .
459,464 (Tex. Grim. App. 2009).
. Minze's fourth issue is overruled.

Stieficebncy of the Evidence
3xi three issues, Minze complains the evidence is insufficient to support his
convictions for .Cmninal Solicitation of a Child (Counts One and Two, issues two and
three) and Possession of a Controlled Substance (Count Four, issue five).
Standard ofReview
The Court of Criminal Appeals .has expressed our standard- of review of a
sufficiency issue as follows:
When addressing a challenge to the sufficiency of. the. evidence, we
consider whether, after viewing all of the evidence in the light most
favorable to 1he verdict, any rational trier of fact could have found' the
essential elements of the crime beyond a reasonable doubt. Jackson v-..
Virginiar 443 U.S. 307, 319, 99 S. Ct. 2781, 61 L. Ed. 2d 560 (1979); Villa v. ■
State, 514 S.W.3d 227> 232 (Tex. Crim;-App.. 20l7). -This standard requires . the appellate court to defer "to the responsibility of the trier of fact fairly to.
resolve conflicts in the testimony, to weigh the evidence, and to draw
reasonable inferences from basic facts to ultimate facts." Jackson, 443 U.S.
. at 319. We may not re-weigh the evidence or substitute our judgment for
that of the factfinder. Wiliams v. State, 235 S.W.3d 742, 750 (Tex, Crim.
App. 2007). The court conducting a sufficiency review must not engage in
a "divide and conquer" strategy but must consider the cumulative force of
all the evidence. Villa, 514 S.W.3d at 232. Although juries may not
speculate about the meaning of facts or evidence, juries are permitted to

.

'
■

draw any reasonable inferences from the facts so long as each inference is
Minze v. State

Page 6

",b7
ewdence presented at trial. Cary v. State, 507 S.W.3d 750
State ^4^T'^'1T16) ^Sl^kson, 443 U.S. M 319); see also Hooper v.
facSnrf. ' i
W'17 V?*- ^ APP- 2007)- We presume tti the
A- “ ^ ccmfIictinS inferences from the evidence in favor of
VSfCiand We defer t0 Aat res°tai0n. Merritt v. State, 368 S.W.3d
' 525 &**• Crim- APP- 2012)- This is because the jurors are the.
exclusive judges of the facts, the credibility of the witnesses, and the
weight to be given to the testimony. Brooks v. State, 323 S.W.3d 893, _
899 •
(Tex. Cnm. App. 2010). Direct evidence and drcumstantial evidence are
equally probative, and circumstantial evidence alone may be sufficient to
-uphoid a conviction so long as the cumulative force of all the
incriminating
circumstances is sufficient to support the conviction.
„ .
Ramsey v. State, 473 S.W.3d 805, 809 (Tex. Crim. App. 2015Y, Hooper, 214
- S.W.3d at 13.
We; measure whether the evidence presented at trial was sufficient to
support a conviction by comparing it to "toe elements of the offense as. :
defined by the hypothetically correct jury charge for the case." Malik v.
State, 953 S.W.2d 234, 240 (Tex. Crim. App. 1997). The hypothetically
correct jury charge is one that "accurately sets out toe law, is authorized
by the indictment, does not unnecessarily increase the State's burden of
proof or unnecessarily restrict the State’s theories of liability, arid
a equately describes the particular offense for which the defendant was
‘ ; tried." Id.; see also Daugherty v. State, 387S.W.3d 654, 665 (Tex. Crim. App.
2013). the "law as authorized by the indictment* includes the statutory
elements of the offense and those elements as modified by the indictment
Daugherty, 387 S.W:3d at 665. :
Zuniga v. State, 551 S.W.3d 729, 732-33 (Tex. Crim. App. 2018)
Criminal Solicitation of a Child .
In his second and third issues, Minze contends that the evidence is insufficient to
support his convictions in Counts One and Two of the Indictment. Specifically, he
asserts the State failed to prove Minze engaged in sexual contact with the alleged child
because, his argument continues, he was charged with, if any offense at all, and found
Minze v. State

Page 7

guilty of/Indecency with a Child.2
iMmze Was not charged with; nor. was he convicted of, Indecency with a Child.
He was charged with and convicted of criminal solicitation of

a minor under/Ihxas

Penal Code section 15.031(b). The crime he was accused of soliciting was indecency
with a child by contact. Tex. Penal Code § 21.11(a)(1) No completed act of sexual
contact is required.to be proved. See e.g. Ganung v. State, 502 S.W.3d 825, 828-829 (Tex.
App-—Beaumont 2016, no pet.) (the prohibited conduct in online solicitation of a minor.
is the act of soliciting, not the completion of the act the defendant ?is accused of
soliciting); Exy>arte Zavala, 421 S,W.3d 227, 231-32 (Tex. App.-San Antonio 2013, pet. .
refd) (same).
Nowhere in this issue does Mirize attack an element of the offense the State was
required to prove. In presenting error to this Court, an. appellant's brief must contain
argument for the contentions made, with appropriate citations to authorities and to the
record." TEX. R, APP. P. 38,1 (i). The failure to properiy brief an issue presents nothing
for us to review, and we are not required to make an appellant's arguments for him.

See

Luao v. State, 351S.W:3d 878,896 (Tex. Crim, App;.2Qll); Busby v. State, 253 S.W.3d 661,
.673 (Tex. Crim. App. 2008); Neville v. State, -S.W;3d — No. 10-18-00250-CR, 2020 Tex.
2 Minze asserts that the judgments for Counts One arid Two indicate he vi
‘
indictment it is
SU&I feoIn
^ tHMrf-the^jHense
with a Child.

Minze v. State

Pages

App. LEXIS 5546 (Tex. App.-Waco July 20

I, 2020, no pet. h.) (publish).. Accordingly,

these issues are Inadequately briefed and present
failed to point to any element the State

nothing for review because Minze

was required to prove as being insufficiently

supported by the evidence.
Minze s second and third issues are overruled.
. Possession of a Controlled Substance
In his fifth issue, Minze contends, the evidence was insufficient to
support his
conviction for possession of a controlled substance be
into evidence, only testimony from the

cause no lab test was introduced

arresting officer that the substance which fell out

of Minze's hat u;
upon his arrest for criminal solicitation field-tested

positive, for

methamphetamine. Minze cites to no c
ase authority to support this proposition
When presenting error to this Court, an appellant’s brief must contain "
argument
. for the contaraons made, with appropriate citations to authorises and » (he: record. ”
TEX. R. App. P. 38;l(i). The failure to properly brief
review, and we are not required to make an
. State, 351 S.W.3d 878/ 896 (Tex. Crim.
(Tex, Crim. App, 2008); Neville v. State,

an issue presents nothing for us to

appellant's arguments for him. Lticio v.

App. 2011); Busby v. State, 253 S.W.3d 661, 673
-S.W.3d- No. 10-18-00250-CR, 2020 Tex. APP;

LEXIS 5546 (Tex. App.-Waco July 20,2020, no pet. h.) (publish)
. Because Minze failed
to provide authority to support his argument,: this issue is improperly briefed
arid
presents nothing for review.
Minze v. State
Page 9

Minze s fifth issue is overruled.
Prosecutorial Vindictiveness
& his sixth issue, Minze co
ntendsthe trial court should have dismissed the entire
ornnmsl proceeding became o£ prosecutorial vindictiveness. Mmie- did not bring this
daim to the trial coi
court's attention and thus, h
Sei Neal

as not preserved this complaint for. review.
State, 150 &W3d 169,.ITS(Tex. Cihri
im; App. 5004) (defendant forfeited

prosecutorial vindictiveness claim by failing to comply with TEX. R.

APP. P. 33.1(a)).

Accordingly, Mince's sixth issue is overruled.
Conclusion
Having overruled each issue

on appeal, we affirm the trial court's judgments.

• TOM GRAY
Chief Justice

Before Chief Justice Gray,
Justice Davis, and
Justice Neill
Affirmed ...
Opinion delivered and filed August 31,2020
Do not publish
[CRPM]
.

S
s?

Minze v. State
Page 10

